 

No. 20-1183

 

IN THE SUPREME COURT
OF THE UNITED STATES

Tri-State Zoological Park of Western Maryland, Inc.,
Animal Park, Care & Rescue, Inc., and Robert L.
Candy

Petitioners,

People for the Ethical Treatment of Animals, Inc.

Respondent.

CERTIFICATE OF SERVICE

 

Now comes the undersigned, counsel of record for the
Petitioner and a member of the bar of this Court, and
hereby certifies that on this 23"4 day of June, 2021,
copies of the Reply Brief in Support of the Petition for
Certiorari, the Certificate of Word Count under Rule
33.1, and this Certificate of Service were sent via
electronic mail to the following parties, who as counsel
in the case have agreed to waive service of paper
copies pursuant to this Court’s Miscellaneous Order of
April 15, 2020 and orders following.

 
Electronically Served Upon:

ADAM ABELSON, ESQUIRE
Zuckerman Spaeder, LLC
100 East Pratt Street

Suite 2440

Baltimore, Maryland 21202
aabelson@zuckerman.com
410-949-1148

MARCOS HASBUN, ESQUIRE
Zuckerman Spaeder, LLC

101 East Kennedy Blvd.

Suite 1200

Tampa, Florida 33602
mhasbun@zuckerman.com
813-321-8220

ZEYNEP GRAVES, ESQUIRE
CAITLIN HAWKS, ESQUIRE
PETA Foundation

2154 West Sunset Blvd.

Los Angeles, California, 90026
zeyneph@petaf.org
caitlinh@petaf.org
323-210-2263
 

KAGAN, STERN, MARINELLO
& BEARD, LLC

238 West Street

Annapolis, MD 21401
443-994-0403
krause@kaganstern.com
